CASE NO. - - - - IN THE SUPREME COURT OF THE UNITED STATES
OCTOBER TERM 2020

JASON SCOTT PEDRO,
Petitioner,

v.
UNITED STATES OF AMERICA,
Respondent.

PROOF OF SERVICE
STATE OF OKLAHOMA

)

)
COUNTY OF OKLAHOMA

ss.

)

In accordance with Supreme Court Rule 29 .5, WILLIAM P. EARLEY, attorney
at law, being first duly sworn deposes and says that on May 7, 2021, the petition for
writ of certiorari in the above entitled cause was deposited in a United States Postal
Service mail box located in Oklahoma City, Oklahoma, with prior postage prepaid,
properly addressed to the Clerk of the Supreme Court of the United States, and with
additional copies of the petition and proof of service to:

Elizabeth Prelogar
Acting Solicitor General
Department of Justice
950 Pennsylvania Avenue, NW
Washington, D.C. 20530-0001
Robert J. Troester
Acting United States Attorney
Western District of Oklahoma
210 Park Avenue, Suite 400
Oklahoma City, Oklahoma 73102

Dated at Oklahoma City, Oklahoma, this 7th day of May 2021.

Subscribed and sworn to before me this 7th day of May 2021.

~

My Commission Number is:

l30 l t:)7 lS

My Commission Expires:

l l · 22 · 20 :2-\

.&\O~

otaryPublic

